<html>
<title> - AIR TRANSPORTATION</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]


 
          AIR TRANSPORTATION--CUSTOMER PROBLEMS AND SOLUTIONS
=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON ENERGY POLICY, NATURAL
                    RESOURCES AND REGULATORY AFFAIRS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 31, 2001

                               __________

                           Serial No. 107-85

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform





                       U. S. GOVERNMENT PRINTING OFFICE
81-310                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              ------ ------
C.L. ``BUTCH'' OTTER, Idaho                      ------
EDWARD L. SCHROCK, Virginia          BERNARD SANDERS, Vermont 
JOHN J. DUNCAN, Jr., Tennessee           (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

Subcommittee on Energy Policy, Natural Resources and Regulatory Affairs

                     DOUG OSE, California, Chairman
C.L. ``BUTCH'' OTTER, Idaho          JOHN F. TIERNEY, Massachusetts
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEVEN C. LaTOURETTE, Ohio           PATSY T. MINK, Hawaii
CHRIS CANNON, Utah                   DENNIS J. KUCINICH, Ohio
JOHN J. DUNCAN, Jr., Tennessee       ROD R. BLAGOJEVICH, Illinois
------ ------

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                       Dan Skopec, Staff Director
                Barbara F. Kahlow, Deputy Staff Director
                        Regina McAllister, Clerk
                 Elizabeth Mundinger, Minority Counsel





                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 31, 2001....................................     1
Statement of:
    McLean, Donna, Assistant Secretary for the Office of Budget 
      and Programs and Chief Financial Officer, Department of 
      Transportation; Jane Garvey, Administrator, Federal 
      Aviation Administration, Department of Transportation; Ed 
      Merlis, senior vice president, legislative and 
      international affairs, Air Transport Association of 
      America, Inc.; Todd Hauptli, senior vice president, 
      legislative affairs, American Association of Airport 
      Executives; Henry Ogrodzinski, president and chief 
      executive officer, National Association of State Aviation 
      Officials; David Krietor, aviation director, Phoenix Sky 
      Harbor Airport; and Sue Sandahl, council member at-large, 
      Richfield City council, Minnesota..........................    13
Letters, statements, etc., submitted for the record by:
    Garvey, Jane, Administrator, Federal Aviation Administration, 
      Department of Transportation:
        Information concerning co-location.......................   100
        Information concerning FAA Order 1050.1E.................    98
        Information concerning proposed runways..................   105
        Prepared statement of....................................    25
    Hauptli, Todd, senior vice president, legislative affairs, 
      American Association of Airport Executives, prepared 
      statement of...............................................    56
    Krietor, David, aviation director, Phoenix Sky Harbor 
      Airport, prepared statement of.............................    80
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................   118
    McLean, Donna, Assistant Secretary for the Office of Budget 
      and Programs and Chief Financial Officer, Department of 
      Transportation:
        Information concerning Council on Environmental Quality..    90
        Information concerning settlements.......................    95
        Prepared statement of....................................    16
    Merlis, Ed, senior vice president, legislative and 
      international affairs, Air Transport Association of 
      America, Inc., prepared statement of.......................    39
    Ogrodzinski, Henry, president and chief executive officer, 
      National Association of State Aviation Officials, prepared 
      statement of...............................................    75
    Ose, Hon. Doug, a Representative in Congress from the State 
      of California, prepared statement of.......................     4
    Otter, Hon. C.L. ``Butch'', a Representative in Congress from 
      the State of Idaho, prepared statement of..................   119
    Sandahl, Sue, council member at-large, Richfield City 
      council, Minnesota, prepared statement of..................    86


          AIR TRANSPORTATION--CUSTOMER PROBLEMS AND SOLUTIONS

                              ----------                              


                         TUESDAY, JULY 31, 2001

                  House of Representatives,
  Subcommittee on Energy Policy, Natural Resources 
                            and Regulatory Affairs,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2154, Rayburn House Office Building, Hon. Doug Ose 
(chairman of the subcommittee) presiding.
    Present: Representatives Ose, Otter, Duncan, Tierney, Mink, 
and Kucinich.
    Staff present: Dan Skopec, staff director; Barbara Kahlow, 
deputy staff director; Jonathan Tolman, professional staff 
member; Regina McAllister, clerk; Elizabeth Mundinger, minority 
counsel; and Earley Green, minority assistant clerk.
    Mr. Ose. Good afternoon. I call this meeting to order of 
the Energy Policy, Natural Resources and Regulatory Affairs 
Subcommittee. Good afternoon. The way we are going to proceed, 
I'm going to make an opening statement and then Mr. Duncan is 
going to make an opening statement. I forewarn you we are on 
the verge of having a vote on a rule on the House floor. We are 
monitoring that. When we get to that, we'll recess to go over 
and vote and then come back.
    The summer is a busy travel time. Many Americans travel by 
air. Unfortunately, too many have experienced frustration with 
air travel, particularly delays. Some have also experienced a 
variety of other problems, such as not receiving information 
about the lowest available airfare, being bumped from an 
overbooked flight, having the airlines lose their baggage, 
having insufficient overhead bin space for their carry-ons, and 
suffering in cramped leg room. Today's hearing will examine 
possible solutions to remedy at least some of these problems.
    In 1978, Congress changed the economic regulation of the 
airline industry in the Airline Deregulation Act. Since then, 
fares have fallen, more cities have more air service, and 
fatalities in the air have decreased. However, the bad news is 
that there are still big problems, especially as it relates to 
delays. In 2000, one in four flights were late, diverted or 
canceled. The question is, what can be done now to prevent that 
from reoccurring. The June 25, 2001 edition of Fortune magazine 
included an article entitled, ``Air Travel--How to Fix the Air-
Traffic Mess, Deregulation Isn't the Problem. It's the 
Answer.'' Today's witnesses will be asked if regulatory 
streamlining is an answer.
    The Department of Transportation is responsible for 
addressing consumer airline problems. Last month in response to 
consumer frustration and possible new legislation, the Air 
Transport Association, representing 14 major airlines, 
voluntarily committed to improve customer service, such as 
notifying passengers of known delays, cancellations and 
diversions and lowest available air fares. I look forward to a 
status report on that today.
    Even if customer service improves, there is a growing gap 
between the demand for air transportation and capacity to meet 
that demand. Some believe that air transportation problems can 
be best addressed by increased airport capacity--greater use of 
underutilized airports, new runways, new airports and 
conversion of some military airfields to civilian use--and, 
second, air traffic control modernization. Denver's airport is 
the only new major hub airport in the last 25 years. Also, 
while passenger ridership increased more than 40 percent during 
the last 10 years, only six runways were added at the 31 large 
hub primary airports. Another 18 runways are planned to be 
opened in the next 10 years at the 31 hub airports.
    In 2000, Congress required DOT to study Federal 
environmental requirements related to air improvement projects. 
In May 2001, DOT's Federal Aviation Administration issued the 
required report. FAA found that the 31 hub airports account for 
70 percent of U.S. air passengers and the top 25 of these 
airports account for 86 percent of all severe air traffic 
delays. FAA estimated an average 10-year planning cycle for new 
commercial runways; that is, from time of active planning to 
the start of construction. From first planning to actual 
completion takes even longer. In many cases the process took 15 
to 20 years. Some took more than 20 years. One major airport 
has a runway that has been on the drawing board for 30 years. 
These delays are the result of a review and approval process 
that is complicated, conflicting, duplicative and ill-defined.
    This lengthy process is due to the fact that there are 
approximately 40 Federal laws, Executive orders and regulations 
governing runway and airport construction. Principal among 
these is the National Environmental Policy Act. Besides 
Transportation's FAA, there are numerous Federal agencies 
involved in these processes.
    In addition to the Federal agencies and requirements, there 
are State and local agencies and processes, some of which are 
duplicative of the Federal process. The most far reaching State 
review is the California Environmental Quality Act. Substantial 
airport development projects in California require a State 
environmental impact report in addition to a Federal 
environmental impact statement under NEPA.
    The principal air transportation agencies and organizations 
do not want to change existing environmental laws but support a 
better coordinated review process. The key to shortened time 
lines for new runways and airports may be simultaneous versus 
sequential processes and set time limits, both at the Federal 
level and at the State or local level. Today's hearing will 
explore the timetable for that regulatory streamlining.
    In addition, there is an outdated air traffic control 
system. FAA's computer software dates to the 1960's. Right now 
we use the functional equivalent of single lane highways in the 
sky. If spacing were reduced via reduced vertical separation 
minima or RVSM, more planes could be accommodated. The 
standards we are using today were set 50 years ago. Satellite 
based technology, primarily GPS technology, would enable planes 
to fly closer together, essentially converting what is a single 
lane highway into a 12-lane highway. FAA will provide a status 
report on that today.
    I look forward to the testimony of our witnesses on how air 
transportation can be approved. I recognize the gentleman from 
Tennessee for the purpose of an opening statement.
    [The prepared statement of Hon. Doug Ose follows:]
    [GRAPHIC] [TIFF OMITTED] 81310.001
    
    [GRAPHIC] [TIFF OMITTED] 81310.002
    
    [GRAPHIC] [TIFF OMITTED] 81310.003
    
    [GRAPHIC] [TIFF OMITTED] 81310.083
    
    [GRAPHIC] [TIFF OMITTED] 81310.084
    
    [GRAPHIC] [TIFF OMITTED] 81310.085
    
    [GRAPHIC] [TIFF OMITTED] 81310.086
    
    Mr. Duncan. Mr. Chairman, thank you very much. As you know, 
I just added this committee to the committees on which I serve 
and I've had a couple of meetings of the full committee, but 
this is my first meeting of this subcommittee and it's a little 
ironic I suppose to look down and see a group of old friends 
here to testify and, as you know, I've spent the past 6 years 
chairing the House Aviation Subcommittee, and I still serve on 
that subcommittee, and during my tenure as chairman of the 
Aviation Subcommittee, we held many hearings on customer 
problems and what we can do to improve our air traffic control 
system and all of the problems that you've just done such a 
fine job of summarizing in your statement. Your statement has 
hit the nail on the head on many of these issues.
    I first want to welcome Administrator Garvey, who I think 
has done an outstanding job as Administrator of the FAA, and 
also I see Donna McLean down there and I testified at her 
confirmation hearing. She used to work for me at the 
subcommittee and did an outstanding job, and I could say, I 
should say nice things about all the people here to testify, 
but I won't take up all of that time. Let me----
    Mr. Ose. We do have the time, Mr. Duncan.
    Mr. Duncan. Let me just say that the main legislation that 
we passed as chairman was the AIR-21 legislation, and that I 
think most of us in this room believe will lead to many 
improvements in these problems if it has time to take effect.
    In the year 2000, there were almost 700 million air 
travelers, and to have all of those hundreds of millions of 
passengers arrive safely and almost all of them very close to 
being on time, and have even more bags arrive, I think the job 
that the airlines and the FAA do is miraculous. On the other 
hand, the airline industry and aviation is probably the most 
high profile industry in this country today. It's just a fact 
of life that, if people have 100 good flights and 1 bad flight, 
the flight they tell everyone about is the bad flight that they 
have.
    The demands are out there that all of us have to work to 
meet in some way. The demands are out there to always 
constantly be trying to improve service and cut down on delays 
and do everything we can to make the whole system better.
    I do understand that the Air Transport Association has 
reported that the airlines as a group have spent $3 billion in 
recent months to address customer service-related problems over 
these last few years, and the customer complaints are way down, 
but almost half of what they were just a year ago. But we do 
have to try to do even better.
    The American Association of Airport Executives, Todd 
Hauptli is here to represent them today. Todd's another long 
time friend. They've estimated that, if we construct 50 miles 
of new runway, our capacity problems would be greatly, greatly 
reduced. And that, I think, is the key. I'm told that almost 70 
percent of all delays are weather-related and so we can't do a 
lot about that. So we have to work with that other 30 percent 
that hopefully we can do something about. But as you pointed 
out, Mr. Chairman, the problem is how long it takes or one of 
the main problems is how long it takes to get some of this new 
capacity into operation.
    I remember one hearing we had in which they said that the 
main runway at the Atlanta airport took 15 years from the time 
it was conceived until it was completed. And yet, only 33 of 
those days were spent on actual construction. They were 24-hour 
days, so around the clock construction, so perhaps you could 
say 99 days. But still out of a 15-year period, that's 
ridiculous.
    In AIR-21 we had a provision that would require the FAA to 
study the environmental requirements related to the planning 
and approval of airport projects, such as runways. That study 
was released this past May and reported that the average time 
from the start of planning of a runway until the start of 
construction is around 10 years, with the environmental impact 
study occupying the biggest part, or that's the biggest single 
thing taking up this time.
    In 1987, Memphis decided to address congestion problems and 
start construction of a new runway. It took the airport 16 
years from the beginning of that process until the runway was 
finally opened. That is simply too long. It's something that we 
have to improve, and it's, I think, the biggest single area of 
where we can improve and speed things up.
    The top 31 cities that have the most congestion have built 
only seven runways in recent years, and those same 31 cities, 
I'm told, have built 47 athletic stadiums just since 1990. So 
they obviously have given higher priority to that than they 
have to something as important as aviation and our entire 
aviation system.
    So, I'm very pleased that you're holding this hearing 
today. I look forward to the testimony of the witnesses. There 
are many things we can do and should do, and I think all of 
these people down front are trying hard to solve as many of 
these problems as we can, and hopefully we can help them in 
that process.
    Thank you very much.
    Mr. Ose. I thank the gentleman. Procedurally, if other 
Members come and they have opening statements, we are going to 
provide an opportunity to submit them written to the record.
    We are going to move ahead here on the testimony of the 
witnesses. I want to welcome our witnesses today. Joining us, 
and we are going to go left to right here, we have Ms. Donna 
McLean, who is the Assistant Secretary for the Office of Budget 
and Programs and the Chief Financial Officer for the Department 
of Transportation. Next is Ms. Jane Garvey, who is the 
Administrator of the Federal Aviation Administration, 
Department of Transportation. Seated next to Ms. Garvey is Ed 
Merlis, who is the senior vice president of legislative and 
international affairs for the Air Transport Association of 
America, Inc. Directly in the middle is Todd Hauptli, the 
senior vice president, legislative affairs for the American 
Association of Airport Executives. Next to Mr. Hauptli is Henry 
Ogrodzinski, who is the president and chief executive officer 
of the National Association of State Aviation Officials. Next 
is Mr. David Krietor, who is the aviation director for Phoenix 
Sky Harbor Airport. And our final witness is Sue Sandahl, a 
council member for the Richfield City Council in Minnesota.
    At this committee, we swear in our witnesses so if you'd 
all rise.
    [Witnesses sworn.]
    Mr. Ose. Let the record show the witnesses answered in the 
affirmative.
    Ladies and gentlemen, we've had your testimony for a couple 
of days. I know I've read it. I'm sure Mr. Duncan has, as has 
Mr. Tierney. We are going to give you each 5 minutes to 
summarize. I have a quick gavel, given the number of witnesses 
we have today, so, Ms. McLean, you're first for 5 minutes.

STATEMENTS OF DONNA McLEAN, ASSISTANT SECRETARY FOR THE OFFICE 
OF BUDGET AND PROGRAMS AND CHIEF FINANCIAL OFFICER, DEPARTMENT 
OF TRANSPORTATION; JANE GARVEY, ADMINISTRATOR, FEDERAL AVIATION 
ADMINISTRATION, DEPARTMENT OF TRANSPORTATION; ED MERLIS, SENIOR 
  VICE PRESIDENT, LEGISLATIVE AND INTERNATIONAL AFFAIRS, AIR 
 TRANSPORT ASSOCIATION OF AMERICA, INC.; TODD HAUPTLI, SENIOR 
 VICE PRESIDENT, LEGISLATIVE AFFAIRS, AMERICAN ASSOCIATION OF 
  AIRPORT EXECUTIVES; HENRY OGRODZINSKI, PRESIDENT AND CHIEF 
   EXECUTIVE OFFICER, NATIONAL ASSOCIATION OF STATE AVIATION 
OFFICIALS; DAVID KRIETOR, AVIATION DIRECTOR, PHOENIX SKY HARBOR 
 AIRPORT; AND SUE SANDAHL, COUNCIL MEMBER AT-LARGE, RICHFIELD 
                    CITY COUNCIL, MINNESOTA

    Ms. McLean. Thank you, Mr. Chairman, Congressman Tierney, 
and members of the subcommittee. I'm pleased to appear before 
you today along with Administrator Garvey on behalf of 
Secretary Mineta to discuss air transportation, customer 
problems and solutions. I want to clarify that the request was 
for our Chief Counsel, who is still being considered by the 
Senate. So, as the CFO, I'm pinch hitting today.
    As I will shortly discuss, flight problems, including 
delays, cancellations or missed connections, is the No. 1 
consumer complaint category and has been for years. In 2000, 
more than 700 million passengers flew on U.S. airlines, a 50 
percent increase in just 9 years. In addition, the Federal 
Aviation Administration expects that the numbers of passengers 
flying on U.S. airlines will hit 1 billion by the year 2010. 
This dramatic growth has strained our existing aviation 
infrastructure nearly to breaking point in some parts of the 
country. It is the goal of DOT and FAA, working together with 
Congress and the industry, to add capacity to the national air 
transportation system, while ensuring that the individual 
consumer is protected.
    While the FAA is responsible for aviation safety and air 
traffic efficiency, the Office of the Secretary of 
Transportation is responsible for the economic aspects of the 
aviation industry. In addition, the Office of the Secretary 
publishes DOT's monthly Air Travel Consumer Report. The report 
provides consumers useful airline information in the areas of 
consumer complaint levels, flight delays, mishandled baggage 
rates and airline oversales, or commonly referred to as denied 
boarding.
    As shown in this report, most consumer complaints we 
receive fall into three categories, the most common being 
flight problems, followed by customer service and then baggage. 
Although the number of complaints have changed over the past 
several years, the ranking of the top three complaint 
categories has remained the same. Total complaints received 
nearly quadrupled from 1995, where we received 6,000 
complaints, to the year 2000 where we received 23,000 
complaints.
    Customer complaints often increase when flights are 
delayed. In the year 2000, only 7 percent of flights arrived on 
time, which was the lowest percentage in the past 6 years. I 
want to note that in the first half of 2001, this year, the 
Department has received 9,800 complaints. Although it's too 
early to draw conclusions, it appears that complaint rates are 
dropping slightly.
    We are committed to working with all interested parties, 
Congress, consumers and industry, to reduce the number of 
flight delays that result in a high level of frustration by the 
traveling public. As an example of that commitment, the 
Enforcement Office at DOT has recently emphasized two customer 
protection areas: deceptive advertising and civil rights 
compliance. In the area of airline advertising and Internet 
sales, the Enforcement Office has conducted a number of 
investigations and taken other steps to ensure that 
transportation consumers are not deceived and that they are 
provided accurate and comparable information to make educated 
travel purchase decisions.
    In the past 3 years, the Enforcement Office has 
investigated over 100 cases of alleged discrimination based on 
race, ethnicity, national origin and religion. In addition, DOT 
is currently completing its review of several thousand 
complaints alleging violations of the Air Carrier Access Act in 
connection with inadequate wheelchair service. These complaints 
and requirements contained in AIR-21 have imposed a substantial 
new workload on the Enforcement Office.
    Taking the lead from the Department's Inspector General's 
report on airline customer service commitments, which found 
that resources carrying out the Department's aviation consumer 
protection responsibilities are seriously inadequate, President 
Bush's budget for 2002 seeks additional resources for aviation 
consumer protection functions. In particular, we are seeking an 
additional $2.6 million in funding, which includes 18 positions 
and 11 FTEs, which translate into 11 FTEs for the Enforcement 
Office.
    Before closing, I must point out that we may be beginning 
to see a trend toward improved airline customer service. For 
example, airline customer complaints filed with the Department 
for the first 6 months of this year are down about 20 percent 
from the levels experienced over the same period last year. In 
addition, mishandled baggage rates have improved in the first 6 
months of calendar year 2001, compared to the same period last 
year.
    Likewise, airline on-time performance appeared to be 
improving in the first half of this year. The carriers reported 
77 percent of their flights were on time this year as compared 
to the same period last year, where the rate was 74 percent. We 
are convinced, as is the IG, that if the problem of flight 
delays is solved, we would see further declines in many of the 
complaint categories.
    We are also taking steps to improve customer protection 
requirements in areas covered by the airline customer service 
commitments. We have already doubled airline minimum baggage 
liability limits and begun work on developing a rulemaking to 
examine, among other things, increasing the maximum amounts of 
denied boarding compensation. Notwithstanding recent 
indications of improvement, we are all aware that there is much 
still to be done to protect the interests of air travelers.
    I assure you that we will continue to devote our best 
efforts in that regard.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. McLean follows:]
    [GRAPHIC] [TIFF OMITTED] 81310.004
    
    [GRAPHIC] [TIFF OMITTED] 81310.005
    
    [GRAPHIC] [TIFF OMITTED] 81310.006
    
    [GRAPHIC] [TIFF OMITTED] 81310.007
    
    [GRAPHIC] [TIFF OMITTED] 81310.008
    
    [GRAPHIC] [TIFF OMITTED] 81310.009
    
    [GRAPHIC] [TIFF OMITTED] 81310.010
    
    Mr. Ose. Thank you, Ms. McLean. Just for everybody's sake, 
on the table there's a little light there. It's got green, 
yellow and red lights. Green is you're in the first 4 minutes. 
Yellow is you're in your last minute and red is the trap-door 
is about to open. OK? So thank you, Ms. McLean. Ms. Garvey for 
5 minutes.
    Ms. Garvey. Thank you very much, Mr. Chairman, Congressman 
Tierney, Mr. Duncan. It's a real honor and a pleasure to appear 
before this committee for the first time along with my 
colleagues at the table, many of whom I've worked with for a 
number of years.
    Our national air space system is extremely complex, as you 
suggested in your opening statement. We manage 50 percent of 
the world's aviation traffic. We've seen a doubling of 
passengers in the last decade. It is highly interconnected and 
highly interdependent, and it relies on each sector to operate 
both safely and efficiently. Delays in any one of our busiest 
airports have a rippling effect throughout the entire aviation 
system. For example, on one single day in December, delays at 
LaGuardia caused delays at 73 other airports by the end of the 
day.
    All sectors of the industry, as you indicated in your 
comments, airlines, airports and the government, share a 
responsibility for action. There is some good news this summer. 
With a great deal of cooperation from the airlines and 
certainly a tremendous amount of help from mother nature, we've 
had 4 consecutive months of decreases in air traffic delays 
compared to the same 4 months last year. On average, when we 
look at the last 4 months, we've seen about a 10 percent 
decrease in delays. And our preliminary numbers for July show 
this continued decline in delays as well. So, the trends are 
heading in the right direction.
    We've approached this issue with some short-term 
initiatives or tactical initiatives and with longer term 
strategies. I want to very briefly touch on both approaches.
    First, let me say that I think we've had an unprecedented 
level of cooperation between the FAA, the airlines, the pilots, 
and the controllers in managing the system. Every day just 
after 5 a.m., from the FAA Command Center planning begins and 
that planning continues every 2 hours throughout the day. It's 
real-time decisionmaking, real-time collaboration.
    Last fall, in preparation for this summer's travel time, we 
conducted a joint evaluation with the airlines. We looked at 
what worked and what didn't for last summer and we came up with 
a series of recommendations. I'm pleased to say we've 
implemented all of those recommendations. One of the most 
important recommendations was joint training that we conducted 
with the airlines. During the winter months and the spring 
months of this past year we trained thousands of controllers, 
supervisors, airline dispatchers and pilots, and I think that's 
really made a difference.
    We also focused with the airlines on the most challenging 
airspace for us. It's going to be no surprise to anyone here 
but it is the airspace between Chicago, Boston, and Washington. 
That's the congested triangle. We've identified 21 initiatives 
to relieve those choke points. Those initiatives really are 
focused very much on gaining efficiency in the existing air 
space.
    We've changed air traffic procedures. We've established new 
sectors, and we've created new routes. We've completed work on 
about 14 of those initiatives and have plans under way to 
complete the rest. We are beginning to see some results from 
that. For example, in the New York-New Jersey Metropolitan 
Area, we are seeing that westbound and northbound traffic out 
of those three busy New York airports are experiencing much 
fewer delays.
    In addition, we have what I would call unprecedented 
cooperation with NAV Canada. They join our teleconferences each 
day and they've also opened up their airspace to accommodate 
our flights on the busy East Coast. In the medium term, we 
certainly aspire to achieve greater efficiency through 
expanding capacity on the ground. I think, as Congressman 
Duncan noted, in some ways our greatest challenges involve 
expanding the runways and expanding that ground side capacity.
    We recently, last March, issued a report on the capacity 
benchmarks of the 31 busiest airports in the country. We looked 
at these airports in a couple of ways. What's the capacity 
there now? What's the demand there now? What does the future 
hold? We determined the number of flights that those very busy 
airports can accommodate safely, both in good weather and in 
bad. I think the benchmark report has been a very, very useful 
tool for airlines, for the FAA and for airports to find the 
right set of solutions that we can focus on for our busy 
airports. We think it's being used effectively by the airports.
    Runways certainly are our greatest challenge.
    Mr. Chairman, you mentioned the streamlining report that we 
issued with a great deal of guidance and support from the 
Secretary and his staff. We issued that in May. We are very 
busy implementing a number of those initiatives and focusing 
obviously on the ones that we can do administratively. We are 
getting an enormous amount of support from the Secretary on 
this effort. I want to just pick up on something that both you 
and Congressman Duncan made in your comments, and that is that 
when you look, this issue is complex. It is not an easy issue 
to solve. But I'm absolutely confident that working together we 
can find the right solution. Thank you for allowing me to be 
here.
    [The prepared statement of Ms. Garvey follows:]
    [GRAPHIC] [TIFF OMITTED] 81310.011
    
    [GRAPHIC] [TIFF OMITTED] 81310.012
    
    [GRAPHIC] [TIFF OMITTED] 81310.013
    
    [GRAPHIC] [TIFF OMITTED] 81310.014
    
    [GRAPHIC] [TIFF OMITTED] 81310.015
    
    [GRAPHIC] [TIFF OMITTED] 81310.016
    
    [GRAPHIC] [TIFF OMITTED] 81310.017
    
    [GRAPHIC] [TIFF OMITTED] 81310.018
    
    [GRAPHIC] [TIFF OMITTED] 81310.019
    
    [GRAPHIC] [TIFF OMITTED] 81310.020
    
    [GRAPHIC] [TIFF OMITTED] 81310.021
    
    [GRAPHIC] [TIFF OMITTED] 81310.022
    
    Mr. Ose. Thank you Ms. Garvey.
    What is the pleasure of the committee: to take another 
witness or go vote and come back. It's two votes, one on the 
rule and then a subsequent 5-minute vote so you want to take 
another witness and then go vote. Mr. Merlis for 5 minutes.
    Mr. Merlis. Thank you, Mr. Chairman and members of the 
subcommittee. I appreciate the opportunity to appear before you 
to discuss our shared concerns about the problems facing air 
transportation.
    Simply stated, our aviation system's three components of 
capacity--airlines, air traffic control and airports--are out 
of sync and, as a result, we unfortunately have too many delays 
each and every day. While safety is and will always remain our 
paramount goal, these delays undermine faith in our air 
transportation system, inconvenience our passengers and 
shippers and cause untold discomfort and substantial cost to 
our customers, our employees and our economy.
    How did we get to this state of affairs? Well, simply 
stated, each component of the system is controlled by very 
different forces. The airlines, the airports and the air 
traffic control system each have different masters, and my 
written statement goes into some detail about what drives each 
one of those. Suffice it to say the airlines, the FAA and the 
airports have undertaken aggressive programs to address the 
infrastructure shortfall, both individually and 
collaboratively.
    I've attached to my statement a copy of a letter to 
President Bush from a broad cross-section of industry and labor 
which provides an outline of the necessary action plan. This 
plan was put together last week at an aviation summit at which 
Administrator Garvey very graciously participated. I further 
enumerate in my written statement, some actions taken 
unilaterally by the airlines and collaboratively with the FAA 
in order to deal with the delay and customer service problems.
    So, what in the long run can we do? There are several ways 
in which Congress can provide major assistance to enhancing the 
expansion of our national aviation system. First, we believe 
it's imperative to identify our aviation infrastructure 
shortfall as the major national crisis that it is. Congress 
should move quickly to define through an appropriate 
legislative finding the national purpose behind airport 
development projects at our most significant airports. Congress 
needs to make it clear that certain key airport projects are to 
be given the highest priority in order to foster the 
maintenance of safe and efficient interstate air commerce.
    Second, from a procedural standpoint the much talked about 
idea of environmental streamlining must become a reality. 
Consolidation, coordination and expediting of Federal and State 
environmental reviews, including Federal preemption, is 
necessary and the elimination of counterproductive and often 
mischievous alternatives analysis requirements would all serve 
to make environmental review more functional and less 
dysfunctional. Too often today's system invites small vocal and 
legally facile groups to manipulate the process to halt growth 
despite the needs and desires of the larger community. 
Environmental streamlining, of course, would take us only so 
far in expediting airport infrastructure deployment. Even more 
must be done. So let me offer some conceptual approaches that 
might upon further exploration offer some other solution.
    Congress might wish to consider a mechanism sharing some of 
the characteristics of the military Base Realignment and 
Closure Commission to engage in a review in a national priority 
setting for specific key airport infrastructure projects. 
Federal transportation funding, not simply airport funding, 
might be utilized to incentivize communities with priority 
airport infrastructure needs to meet their interstate commerce 
responsibilities. Similarly, if necessary, disincentives might 
be applied as well in those localities that seek the benefits 
of air transportation, but not the shared responsibility. And, 
recognizing that in the broader community there is often 
significant support for better airport infrastructure that is 
drowned out by a vocal minority, steps might be taken to 
identify that support and appropriately factor it into the 
decisionmaking.
    Mr. Chairman, this national issue cannot be relegated 
exclusively to local decisionmaking. The Congress needs to step 
in and establish a set of rules and requirements together with 
rewards and incentives that foster expansion of the system upon 
which our country has become so dependent. Failure to undertake 
such a national approach on the capacity issue will render the 
air transportation system gridlocked, resulting in severe 
adverse economic consequences over the next decade or longer.
    Thank you very much for the opportunity to present the 
statement.
    [The prepared statement of Mr. Merlis follows:]
    [GRAPHIC] [TIFF OMITTED] 81310.023
    
    [GRAPHIC] [TIFF OMITTED] 81310.024
    
    [GRAPHIC] [TIFF OMITTED] 81310.025
    
    [GRAPHIC] [TIFF OMITTED] 81310.026
    
    [GRAPHIC] [TIFF OMITTED] 81310.027
    
    [GRAPHIC] [TIFF OMITTED] 81310.028
    
    [GRAPHIC] [TIFF OMITTED] 81310.029
    
    [GRAPHIC] [TIFF OMITTED] 81310.030
    
    [GRAPHIC] [TIFF OMITTED] 81310.031
    
    [GRAPHIC] [TIFF OMITTED] 81310.032
    
    [GRAPHIC] [TIFF OMITTED] 81310.033
    
    [GRAPHIC] [TIFF OMITTED] 81310.034
    
    [GRAPHIC] [TIFF OMITTED] 81310.035
    
    [GRAPHIC] [TIFF OMITTED] 81310.036
    
    [GRAPHIC] [TIFF OMITTED] 81310.037
    
    Mr. Ose. Thank you, Mr. Merlis. For the benefit of the 
other Members here we've got 6 minutes and 15 seconds. We're 
going to go ahead and recess. We are going to go over and vote. 
Again it's two votes, so we've got this one plus another 5-
minute and then we'll be back and we'll start with Mr. Hauptli.
    [Recess.]
    Mr. Duncan [presiding]. OK. Well, they've asked me to start 
this hearing. Oh, excuse me. That wasn't very long.
    Mr. Ose [presiding]. Mr. Hauptli for 5 minutes.
    Mr. Hauptli. Mr. Chairman. Thank you very much, Mr. Duncan 
and other Members as they come in. What I'd like to do is 
obviously submit my written testimony in its entirety.
    Mr. Ose. Excuse me, Mr. Hauptli. Close that door back 
there, please. Thank you.
    Mr. Hauptli. I will just make a couple of points and, with 
luck, yield back a little of my 5 minutes.
    Over the past decade we have experienced tremendous growth 
in aviation--200 million additional passengers in the system in 
the past decade. We have not kept growth with the 
infrastructure investment that we need to. AIR-21 gives us an 
important step in that direction, but it still is not enough. 
We still have an infrastructure investment gap in this country.
    Over the next decade, 350 million additional passengers are 
expected in the system. That's like taking the entire 
population of the United States and adding that onto an already 
crowded, already delayed system. We need to build more and we 
need to begin building today to meet that growing demand. It 
currently takes 10 to 15 years, as you've identified, Mr. 
Chairman, in your opening statement, to go through the local 
and Federal review and approval process to build runways. We 
don't have 15 and 20 years to build in the system. We need to 
start today.
    As others have noted, we had one in four flights delayed 
last year, 163 million passengers affected, and the bottom line 
is that consumer complaints are going to continue unless we 
deal with building additional capacity in the system. Beyond 
just our own desire to get from point A to point B without 
having to be delayed, there's a real economic impact. I mean, 
in a country as broad, with the geography that we have in the 
United States, you need a highly developed, highly efficient 
air transportation system to move not only people, but also 
products quickly and efficiently from point A to point B. In 
Germany and Japan you can rely on the rail system. They have 
the geography that will allow that. But in the United States 
you need an air transportation system to make sure we stay 
competitive, both domestically and internationally.
    So we need to speed up the review and approval process. We 
need to expedite that process, but do it in a way that is not 
violative of existing environmental safeguards. Jane Garvey of 
the FAA, and Secretary Mineta of the Department of 
Transportation, have done a terrific job of identifying those 
areas where they can, under existing rules and existing 
authority, try and expedite the process. We believe there needs 
to be legislative solutions as well to try and expedite the 
review and approval process.
    The airport community has submitted something we call EASE, 
the Expedited Airport System Enhancement Act. There are eight 
components of it, which are included in my testimony. I'd be 
happy to answer questions about any of that. But we believe 
that those measures, along with some of the measures that other 
folks in this committee and other committees have identified as 
possible solutions need to be explored. We need to get on with 
that. We don't have time to wait 3 or 4 years. We need to begin 
that process today.
    With that, I'll close, Mr. Chairman.
    [The prepared statement of Mr. Hauptli follows:]
    [GRAPHIC] [TIFF OMITTED] 81310.038
    
    [GRAPHIC] [TIFF OMITTED] 81310.039
    
    [GRAPHIC] [TIFF OMITTED] 81310.040
    
    [GRAPHIC] [TIFF OMITTED] 81310.041
    
    [GRAPHIC] [TIFF OMITTED] 81310.042
    
    [GRAPHIC] [TIFF OMITTED] 81310.043
    
    [GRAPHIC] [TIFF OMITTED] 81310.044
    
    [GRAPHIC] [TIFF OMITTED] 81310.045
    
    [GRAPHIC] [TIFF OMITTED] 81310.046
    
    [GRAPHIC] [TIFF OMITTED] 81310.047
    
    [GRAPHIC] [TIFF OMITTED] 81310.048
    
    [GRAPHIC] [TIFF OMITTED] 81310.049
    
    [GRAPHIC] [TIFF OMITTED] 81310.050
    
    [GRAPHIC] [TIFF OMITTED] 81310.051
    
    [GRAPHIC] [TIFF OMITTED] 81310.052
    
    [GRAPHIC] [TIFF OMITTED] 81310.053
    
    [GRAPHIC] [TIFF OMITTED] 81310.054
    
    Mr. Ose. Thank you, Mr. Hauptli. That kind of timeframe, 
you might be invited back some day.
    Mr. Ogrodzinski for 5 minutes.
    Mr. Ogrodzinski. Thank you, Mr. Chairman. Mr. Tierney, Mr. 
Otter, Mr. Duncan. It is a privilege to be here today 
representing the Association of State Aviation Officials. As 
you know, we represent the men and woman in State government 
who serve the public interest in all 50 States, Guam and Puerto 
Rico. The States develop statewide aviation system plans, 
airport capital investments plans, and together they invest 
about a half a billion dollars each year in airport 
infrastructure, operations and development.
    I'm joining you today to bring you some good news about 
some of the things that are happening in the industry. As you 
know, the States themselves also operate airports. They operate 
all of the airports in Hawaii and Alaska, as well as some other 
giants of the industry like Baltimore-Washington International. 
Congress in 1996 made the State Aviation Block Grant Program 
permanent and today nine States are fully responsible for 
directly administering Federal airport improvement programs.
    Under AIR-21 legislation passed last year, these provisions 
include accepting a 10th State into the program. The airport 
approval process is streamlined under the State Block Grant 
Program and expedited. Paperwork requirements have been 
reduced, duplication has been eliminated, and FAA has been able 
to shift resources that would have otherwise applied to these 
airports to other high priority tasks.
    In one block grant State, Missouri, there are six brand new 
airports that have been built in the past decade. As we've 
discussed earlier today, it sometimes take 10 or 12 years to 
build a single runway. But under the block grant program, 
Missouri has been able to build six entire airports. Wisconsin, 
another block grant State, has used some of the very latest 
technology and GPS approaches and pioneering loss systems 
because they are a block grant State and were able to put these 
in position faster than the Federal schedule would allow. 
Wisconsin also has the world's first aircraft deicing system 
that does not rely upon glycol or other polluting chemicals, 
because they were able to accelerate a pilot program under the 
block grant flexibility.
    A State does not need to be a block grant State to be 
innovative. I'd like to note that the State of Washington 
recently passed State legislation requiring cities and 
communities to protect airports from incompatible development. 
The Washington manager of aviation planning, Theresa Smith, 
says facing the challenge today will allow for a peaceful 
coexistence tomorrow. Failure to act will guarantee conflict.
    This spring, we at NASAO signed an agreement with FAA 
Administrator Garvey under which the States and FAA are 
currently examining how environmental review requirements can 
be more effectively and efficiently combined and coordinated to 
streamline the overall process. Our goal is to increase airport 
capacity and decrease delays by expediting the review process 
on airport construction. We believe that we can speed up the 
process without endangering the environment in any way.
    We've already begun this process. We have a survey out to 
the States at the moment. We are working with FAA, and our full 
report will be issued within a year. We have also pledged to 
work with FAA on a strong partnership which will help 
communities understand how important their airports are and 
protect them from incompatible land use and tall structures 
which could imperil navigation.
    Mr. Chairman, members of the committee, we at NASAO believe 
that planning, coordination and cooperation are key for both 
the States and Federal Government to work together to solve 
many of the challenges we face today.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Ogrodzinski follows:]
    [GRAPHIC] [TIFF OMITTED] 81310.055
    
    [GRAPHIC] [TIFF OMITTED] 81310.056
    
    [GRAPHIC] [TIFF OMITTED] 81310.057
    
    Mr. Ose. Thank you, Mr. Ogrodzinski. Mr. Krietor for 5 
minutes.
    Mr. Krietor. Thank you, Chairman Ose and members of the 
committee. I appreciate the invitation to testify today. I 
think I'm the only member of the panel that came to Washington 
in July to cool down. So I represent the city of Phoenix 
Aviation Department, which owns and operates a three-airport 
system, including Sky Harbor International Airport.
    In terms of the Nation's air systems, Sky Harbor is the 
ninth busiest passenger airport and the fifth busiest measured 
in flight operations. It's the only airport in the United 
States that's the largest station for two major airlines: 
America West and Southwest Airlines. Sky Harbor is a critical 
element of our region's economic development infrastructure. 
The airport generates direct employment for over 40,000 people 
and generates $20 billion a year in annual economic impact for 
the State of Arizona.
    Meeting our region's economic development aspirations is 
dependent to a great extent on the success of this airport. 
With the continued growth and demand comes the need to provide 
necessary infrastructure.
    Sky Harbor, some of you may know, is located in the heart 
of our metropolitan area, and while the location provides 
unsurpassed convenience, the airport must operate in a complex 
urban environment. The need for a third runway at Sky Harbor 
was first identified in the airport's 1970 master plan and so 
began a 30-year odyssey. In September 1989, a firm decision was 
made by the Phoenix City Council to proceed with construction 
of the third runway. The path for the new runway had several 
inherent challenges. The Salt River is adjacent to the runway 
site and needed to be channeled. The path of the proposed 
runway traversed the existing Air National Guard fueling unit 
located at Sky Harbor. The delivery of an operational runway 
required 11 years to complete.
    The most time consuming phase for the project involved the 
Federal environmental impact statement process. The EIS process 
was initiated in May 1990 with a draft EIS being issued in June 
1991. The draft EIS initiated a heavy round of public comments 
principally from one source, the city of Tempe, located 
directly east of Sky Harbor, which made voluminous comments to 
the draft EIS. This we believe was clearly a legal strategy to 
extend or delay the process to gain political leverage. The 
final EIS was not published until November 1993, and it was not 
until January 1994 that a record of decision was issued.
    The city of Tempe then filed suit, alleging the FAA did not 
do an adequate job in conducting the EIS. In September 1994, 
the city of Phoenix stepped in and actually executed an 
intergovernmental agreement with Tempe regarding noise 
abatement procedures. The IGA resulted in an amendment to the 
record of decision in September 1994 and the subsequent 
dismissal of the lawsuit. In total, the EIS process took about 
4\1/2\ years to complete, which we believe is about twice as 
long as it should have taken.
    In order to create an environment to allow the airport to 
grow and expand as part of our IGA with Tempe, the city 
voluntarily imposed, with the FAA's concurrence, noise 
mitigation efforts that have constrained capacity at the 
airport. With the EIS settled, the airport was ready to 
commence design of the project, with the added complication of 
moving the Air National Guard. The new runway was not 
operational until October 2000. I would say that the third 
runway opened last October at a cost of $175 million.
    Sky Harbor was able to collect $105 million of the cost 
through passenger facility charges. The remaining costs were 
paid from airport improvement program grants. The availability 
of these funds was critical to maintaining a cost effective 
airport.
    Demands for facilities at Sky Harbor is going to continue. 
We are right now focused on the development of new terminal 
facilities at the airport, and initial efforts to begin the 
environmental review for that project already hint at the 
problems that may face us. FAA guidelines suggest construction 
or expansion of passenger handling facilities is either 
categorically excluded or may in certain cases require an 
environmental assessment. However, in this case the FAA is 
requiring a full EIS and frankly I can't blame them. Given our 
past history with litigation and airport improvement projects, 
they probably have made the right decision in this case. But we 
now have delayed the start of design on the new terminal 
complex. We estimate that it's going to add 2 years to the 
development of these facilities that will allow us to match our 
land side capacity with our air side capacity.
    In conclusion, the city of Phoenix appreciates the 
attention that Congress and the FAA has placed on addressing 
obstacles to airport growth. We fully support AAAE and ACI's 
EASE proposal, look forward to working with them, working with 
Administrator Garvey and working with the Congress in moving 
these issues forward.
    [The prepared statement of Mr. Krietor follows:]
    [GRAPHIC] [TIFF OMITTED] 81310.058
    
    [GRAPHIC] [TIFF OMITTED] 81310.059
    
    [GRAPHIC] [TIFF OMITTED] 81310.060
    
    [GRAPHIC] [TIFF OMITTED] 81310.061
    
    Mr. Ose. Thank you, Mr. Krietor. From the city of Richland, 
Ms. Sandahl for 5 minutes.
    Ms. Sandahl. Thank you, Mr. Chairman, members of the 
committee, for the opportunity to appear before you today. My 
name is Susan Sandahl, and I am a city council member for the 
city of Richfield, located in Minneapolis, just south of 
Minneapolis and west of the Minneapolis-St. Paul International 
Airport. Currently under construction in Minneapolis is a 
north-south runway, which is only 1,200 feet from the nearest 
homes in our community, and I've included a map along with my 
comments.
    As you know, the large--the current debate resolves around 
the aviation industry's call to increase capacity at airports 
by building more runways as quickly as possible. Many in the 
aviation industry contend that local communities near airports 
are obstructing airport capacity by adopting a NIMBY attitude 
at the expense of our national transportation infrastructure.
    We also know, however, that some airport operators provide 
too little dialog with local communities. Too often I hear from 
my colleagues around the country that their local airports 
adopt an arrogant attitude and an unwillingness to include 
local elected officials in key runway decisions. Predictably, 
an adversarial relationship quickly develops.
    Mr. Chairman, I'd like to tell the committee today that it 
does not have to be that way. I know firsthand that local 
communities and airport operators can work together to increase 
airport capacity. When the airport seeks citizen input, it can 
be a good neighbor to the surrounding communities impacted by 
its new runways. I served as a citizen representative on a 
committee that reviewed the design of the potential new runways 
at MSP.
    The citizen members of the committee were able to point out 
to the Metropolitan Airport Commission that a proposed runway 
running due north and south would not be in anyone's interest 
since it was going to impact development that the city of 
Bloomington was proposing at the end of the runway. The MAC, 
alerted to the potential problem, reconfigured the runway and 
Bloomington went ahead with its development, which is now 
called the Mall of America. This is a terrific example of how 
early citizen involvement can help the process and benefit both 
the airport and the surrounding communities.
    As a Richfield City council member, I can also testify to 
the benefits of working with the airport operator and not 
against it. The initial north-south runway EIS did not take 
into account many of the noise impacts that the city of 
Richfield's experts believed would impact the community due to 
the nearness of the proposed runway, 1,200 feet from the 
nearest home. Initially both Richfield and the MAC were engaged 
in an emotional litigious relationship. The confrontation was 
expensive to the city and the airport and the potential cost to 
the airport in years of delay in constructing the runway.
    I'm happy to report, however, that, in 1998, the 
adversarial relationship was changed. Cooler heads at both the 
city hall and MAC headquarters were able to sit down and draw 
up a noise mitigation agreement for a runway that both 
Richfield and the MAC could live with. Under that agreement, 
the city of Richfield and the MAC jointly approached the 
legislature and obtained $5 million to begin buying out the 
homes affected by the new runway.
    Since that time, the community and the MAC have 
collaborated to produce expanded capacity for the airport, and 
have achieved many of the city's noise mitigation goals and 
resolution of land disputes that had been hotly contested. 
These included the buyout of homes that would become 
uninhabitable when the runway went into use, working together 
to secure State and Federal funding for extensive noise 
mitigation efforts and joint coordination of a highway bridge 
to build better access to the airport.
    Also, we've been able to resolve disputes regarding park 
and ballfield replacement issues and a land exchange to allow 
the city to build its city garage. Richfield and the MAC also 
collaborated to produce a study on low frequency noise, which 
is the low, wall shaking rumble associated with takeoffs. 
Little scientific study had been done on this issue and, as a 
result, the FAA had not yet issued any regulations on how to 
mitigate it.
    This groundbreaking jointly funded study by Richfield and 
the MAC is the most comprehensive to date and was the focus of 
a recent Federal interagency meeting last month. Hopefully it 
will pay off in dividends to airport communities across the 
United States if the FAA can reach standards that will affect 
all airports in the future.
    In short, working collaboratively and by their joint 
decision to view each other as partners and not as adversaries, 
the Airport Commission and the city were able to complete a 
runway and to begin noise mitigation efforts before completion.
    And, just for a point of information, our EIS for our 
north-south runway took 2 years. Local communities cannot match 
the tremendous resources of some of our Nation's largest 
airports. However, when we feel cut out of the planning process 
for major infrastructure developments that impact our citizens, 
we will fight to protect them. Airports have it within their 
power to prevent that. That's why I respectfully ask this 
committee to urge airport operators to adopt attitudes toward 
their airport neighbors similar to the attitude that we were 
able to reach with the Minneapolis Airport Commission.
    Airports should dialog with their neighbors, not ignore 
them. We need to invite local community stakeholders to have a 
meaningful seat at the table. Airports that have been reluctant 
to do so thus far may be pleasantly surprised.
    I thank the committee for inviting me here today and would 
be happy to answer any questions. Thank you.
    [The prepared statement of Ms. Sandahl follows:]
    [GRAPHIC] [TIFF OMITTED] 81310.062
    
    [GRAPHIC] [TIFF OMITTED] 81310.063
    
    Mr. Ose. I want to thank the witnesses for their testimony. 
We are going to go to questions now. I'll go first.
    Ms. McLean, the airline industry adopted or made some 
voluntary commitments last month to improve customer service. 
What is the Department's view of those commitments?
    Ms. McLean. I think we think it's a very positive sign that 
ATA and their member airlines are willing to step up again with 
the concerns of consumers and Congress, that additional steps 
need to be taken and they've taken those. So we are very 
encouraged by that.
    Mr. Ose. One of the things we debate up here is whether or 
not there is a need for an airline passenger's bill of rights. 
Given the industry's steps to date, does DOT see a need for 
such legislation at this time?
    Ms. McLean. Well, at this time the administration does not 
have a position on those bills. Typically, what we do is 
provide a position if the bills go to floor action, and I 
believe we'd be taking, you know, following the tradition there 
and taking a position then. Again, we are pleased that ATA is 
coming up with additional customer service commitments.
    In addition, as I said in my testimony, we are very hopeful 
that the number of complaints are declining, even though 
slightly. So we are hoping we are seeing a trend.
    Again the focus by Congress, by all these players at the 
table, we are hoping is resulting in a very positive start to a 
positive end.
    Mr. Ose. One of the issues that I heard all across the 
table was this idea of streamlining the process by which 
airport runways are approved. And, if I understand the phrasing 
of this, it would result in the collocation of rules that 
govern such runway construction. Has the Department taken any 
position or considered issuing a single government-wide common 
rule that would have been signed by all the lead agencies that 
have the 40-odd bites of this apple, governing new airport or 
runway construction?
    Ms. McLean. Well, let me just say that environmental 
streamlining is a top priority for Secretary Mineta, and I 
think Administrator Garvey and I are here to display that 
commitment. As far as immediate actions taken by the Department 
to make environmental streamlining happen, we are working with 
the administration, within the administration with the other 
interested departments and agencies to make sure that not only 
is it a priority of Secretary Mineta, but also a priority for 
the administration.
    So we would like to take smaller administrative steps to 
get the immediate benefits right now. We are looking though in 
the long term using what--more of a common rule approach, which 
is what you're referring to. We have been exploring that, but 
we don't have a position at this time. But I'll be happy to 
work with you and your staff as we continue to explore that as 
an option.
    Mr. Ose. Well, I do want to examine this a little bit more 
closely within my first 5 minutes here. If the Department or 
the Secretary is willing to take the immediate steps, if you 
will, on the common rule, the question I have is what are those 
intermediate steps that the Department or the Secretary is 
willing to take now and when are they going to be taken?
    Ms. McLean. Well, I think that I don't want to commit the 
Secretary to exact specifics, but let me say that it is his 
intention to talk to the Department of the Interior, to the 
EPA, to the Army Corps of Engineers, to work with CEQ within 
the White House to make sure that this is a top priority and 
not just for the Department of Transportation, because, if it's 
just our priority, it's not going to work. We need to 
coordinate and to make sure that it's the priority of these 
other agencies and/or pieces of this administration as well. So 
that means working with them in a fashion where they can--we 
can all agree on specific steps to take to get ourselves in a 
more environmental streamlining activity.
    So the administration is showing that environmental 
streamlining is a top priority.
    Mr. Ose. Do you have a time line on which the 
administration is going to be----
    Ms. McLean. I can get back to you on that.
    Mr. Ose. I would appreciate that.
    Ms. McLean. Absolutely.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 81310.064
    
    [GRAPHIC] [TIFF OMITTED] 81310.065
    
    Mr. Ose. I don't know how much you travel, but I travel 
every week and it would be nice to have some of this stuff 
simplified.
    The other issue is we talked about the enforcement actions, 
the complaints that we had to the Department from customers. 
How many enforcement actions has DOT pursued based on these 
complaints?
    Ms. McLean. Well, to date this year, we've taken 11 
enforcement actions and three--well, we call them enforcement 
orders, and three enforcement orders are in the final stages of 
completion. The total penalties are a little over $200,000. 
But, I want to stress that the Enforcement Office within the 
Office of Secretary, which has this responsibility, is 
compliance oriented, not penalty oriented. So, what we try to 
do when there are complaints is try to immediately contact the 
airlines. If there are, let's say for instance, deceptive 
practices in advertising, we try to immediately contact the 
airlines and if they're willing to take action, then, you know, 
we give them a warning, then we consider the issue closed until 
further notice comes in against that particular airline for 
similar activities.
    So our goal is to have the best information to the customer 
as possible. And, if that means taking care of a lot of these 
complaints administratively and quickly, then we believe we are 
meeting our goals, which is serving the public and making sure 
the customer has the best information possible.
    Mr. Ose. My time is up. Mr. Tierney for 6 minutes.
    Mr. Tierney. Thank you. I was just inquiring as to how many 
rounds we are going to go. Mr. Ose asked me how many I would 
like to go and I said one.
    I understand that runways are one part of the approach that 
people are taking on congestion. But I think, Ms. Sandahl, you 
made the point very clearly, there's always going to be 
opposition, legitimately, in a lot of instances with noise and 
with water or air pollution issues. And I think you made the 
point. That's what we have these public processes for, and we 
are ostensibly in this to make things better for the public.
    Ms. Garvey, Mr. Hauptli recommends streamlining the review 
process by eliminating the need to look at off-airport 
alternatives. In fact, I think he came to the prior conclusion, 
and I think I'm quoting from his written testimony, ``at the 
busiest airports, there's no reasonable off-airport alternative 
to a new runway that will reduce airline delays.''
    Now that concerns me because I happen to think quite 
differently than that. I think regional plans, effective 
region-wide transportation plans that utilize excess capacity 
and other regional airports, would be one way to look. I think 
that high speed rail would be another direction to look, which 
I think we have grossly ignored, probably to our detriment.
    What are your feelings, Ms. Administrator, with regard to 
that comment that off-airport alternatives should be ignored?
    Ms. Garvey. Let me answer that in a couple of ways. First 
of all, we actually worked very closely with AAAE and ACI on 
the Expedited Airport System Enhancement [EASE] proposal that 
Mr. Hauptli referred to, and think they deserve a lot of 
credit. There are a lot of excellent suggestions that we are, 
in fact, implementing, and I think really get at the spirit of 
it.
    On that particular suggestion, I guess we might have a 
slightly different view. We think looking at other alternatives 
is part of the process. I think the question that AAAE and ACI 
have raised, which is also legitimate is, whether it is 
appropriate sometimes to do it through the EIS or can you do 
that simultaneously? And those are fair questions.
    In some cases, I think it is absolutely essential that it 
is part of an EASE process and others you may be able to do it 
concurrently but not part of that process. I think from our 
perspective, what we want to do is not close any options. 
Runways are great answers. But in, as you suggested, in some 
cases, it might be high speed rail. And, in some cases it might 
be emphasizing other airports. So we think we have to keep all 
of those options.
    Mr. Tierney. It struck me, Mr. Krietor, when you mentioned 
$175 million for funding your new runway. All we have spent on 
high-speed rail projects for next year is going to be $25 
million for the whole country. $175 million for your single 
runway. I think that indicates to me we aren't looking for 
alternative solutions perhaps as we ought to.
    Ms. McLean, has this administration looked into whether or 
not additional Federal funding for high-speed rail could result 
in increased ridership? And, that would free up some of the 
congestion at our metropolitan airports?
    Ms. McLean. That is definitely a good question. We have a 
situation in Aviation and Highways where we have guaranteed 
funds as a result of Air-21 and T21. And so those programs have 
trust funds. As a result, they are funded pretty much at the 
full authorized level.
    So I think, unfortunately, we don't have that type of 
situation for high-speed rail, which makes funding a little 
more competitive for that mode, because it's not guaranteed 
funding like the aviation and highways.
    We certainly understand that high-speed rail is something 
to be looked at. Passenger rail service is a focus that we will 
be focusing in on probably the next several months when we talk 
in general about the future of AMTRAK.
    Mr. Tierney. I would hope--this administration has been 
one-hand clapping in terms of what you hear on policy, on 
alternatives to just building more runways and having more 
airport capacity and dealing with the congestion there. I am 
always struck--and I think there was an op ed piece in one of 
the newspapers over the weekend--I think the Washington Post--
that talked about some of the disparities between what we spend 
on airports and highways even, and what we spend on rail.
    Last year, we spent $33 billion on highways. Last year we 
spent $13 billion in aviation. And, last year we spent $521 
million on AMTRAK. You know, when you consider that one out of 
every three flights is for 350 miles or less, particularly out 
of places like San Francisco where 50 percent of the flights go 
less than 350 miles and out of Chicago's O'Hare where 40 
percent of the flights go less than 350 miles. They are both 
considering controversial new runways to reduce congestion. Why 
aren't we considering high-speed rail? I think it is sort of a 
crazy situation.
    I understand they don't have a streamline bit of funding. 
But I think if we really want to be imaginative and this 
administration and the President wanted to get with it, they 
could really start looking at better expenditures, better use 
of our funds and better transportation policy that would 
include high-speed rail. You know, it just begs for it.
    The whole high-speed rail project would require about $1\1/
2\ billion a year over the next 20 years. That doesn't seem 
like an unreasonable investment if it's going to have a serious 
positive impact on congestion.
    Mr. Krietor, I see you nodding your head. I assume that, as 
favorably disposed toward airports as you may be, that you 
think there is some common sense to that?
    Mr. Krietor. I think that the impact of rail varies 
dramatically from metropolitan area to metropolitan area. In 
our environment in Phoenix, we're in a metropolitan area that 
has grown by a million people in the last 10 years. So there is 
huge demands on air service. And, we are in a relatively 
isolated environment, so the ability to grow your airport to 
assist with the community's economic development aspirations 
are critical. We don't even have AMTRAK service in Phoenix, AZ, 
the sixth largest city in the United States.
    Mr. Ose. Thank you, Mr. Tierney. I want to go back to Ms. 
McLean here. Congressman Tierney is right. I do have a lot of 
questions, so we're going to have a few rounds here. You 
mentioned that three enforcement orders and final stages of 
resolution. When will those be completed?
    Ms. McLean. In the next several months. I can get you a 
specific date for the record.
    Mr. Ose. Several months. Does that mean maximum of 6, 3?
    Ms. McLean. A couple, it sounds like. Should be finished 
within the next few weeks. And the other one, we can get back 
to you on.
    Mr. Ose. How long is it taking--when we get a complaint, 
how long is it taking generally, either the mean or the median, 
to resolve that complaint?
    Ms. McLean. May I submit that for the record, because I 
don't have it with me today? Thank you.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 81310.066
    
    [GRAPHIC] [TIFF OMITTED] 81310.067
    
    [GRAPHIC] [TIFF OMITTED] 81310.068
    
    Mr. Ose. Ms. Garvey, you made the statement that NEPA is 
only 1 of approximately 40 laws, Executive orders, and 
regulations protecting the environment. And that these 
individual requirements have not been very well harmonized with 
NEPA's requirements for airport construction or runway 
construction.
    My question is whether or not you support the concept or 
the idea of co-locating all applicable Federal or agency rules 
governing the construction of airports or airport runways?
    Ms. Garvey. I think that's a very, very interesting 
concept. At Secretary Mineta's suggestion, we have taken a 
first crack at that. We have both an FAA order and an airport 
handbook that pull together all of the things we need to do and 
that we know are necessary and essential for an airport to do 
to see a project through to completion.
    But I think that's really only the beginning. I think the 
idea that you've suggested about a kind of a co-location, sort 
of a one-stop shopping of at least for a place for people to 
understand what all the rules are, what all the issues are, I 
think could be very helpful.
    As Ms. McLean mentioned, the Secretary has certainly 
reiterated his commitment to working at the highest levels to 
get cooperation from other Federal agencies.
    I think another organization with whom there is great 
potential for harmonization is the Council on Environmental 
Quality [CEQ]. There is a new chairman of that council. I know 
that we certainly have worked closely with the staff at CEQ in 
the past. But your point about harmonization is critical.
    Mr. Ose. You talked about an agency or a legal rule there 
in your remarks just now. Is that something under development? 
Is it something that's actually been published for comment? 
What is the status of that?
    Ms. Garvey. We have an FAA order and we have an airport 
handbook that's used by our airport office.
    Mr. Ose. What do you mean by that?
    Ms. Garvey. It's actually guidance. That guidance is in 
place right now, but we are updating it. I'm quite sure that 
the work that we've done is just about complete, but I'll get 
back to you with a specific date of completion. If I'm wrong on 
that, I will correct that for the record.
    [The information referred to follows:]

    FAA Order 1050.1E been through public review and is 
scheduled to be issued in final form in the spring of 2002. The 
Airport Environmental Handbook revision will be issued in two 
parts. The part dealing with environmental impacts (e.g., 
noise, air quality and water resources) is scheduled to be 
available for public review in February 2002 and finalized in 
June 2002. The part covering policy and procedures is scheduled 
to be available for public review in September 2002 and 
finalized in December 2002.

    Mr. Ose. If I understand correctly, guidance is not 
something that is binding.
    Ms. Garvey. I'm sorry. Let me be a little bit clearer on 
that. I'm talking about sort of the list of all the regulations 
that people have to follow. That's really what is included in 
our order.
    Mr. Ose. And, that's been----
    Ms. Garvey. We have something like that, but what I'm 
suggesting is that is really only a first step. I think what 
I'm hearing this committee suggest is something that may be 
broader than that and may include some of the other rules and 
regulations that are out there that might be pulled together 
into one document, if you will.
    Mr. Ose. Well, to whom has this legal order been sent?
    Ms. Garvey. It's something that is used by our attorneys, 
by our regional offices, and is often shared with a project 
sponsor and airport that might be interested.
    Mr. Ose. Is it in the public domain?
    Ms. Garvey. Yes, it is, sir. Yes, it is, Mr. Chairman.
    Mr. Ose. So if I understand, your response is that FAA 
supports the idea of co-locating these rules?
    Ms. Garvey. That's correct, Mr. Chairman. And, we would 
like to work with the committee as has been indicated by the 
Secretary's office.
    Mr. Ose. I'm not going to be able to get my second question 
here completed. So Mr. Tierney is yielding his 5 minutes.
    Mr. Tierney. Not all of it.
    Mr. Ose. Now is the FAA also considering a government-wide 
common rule, much like the uniform relocation assistance rule 
that DOT provided that would be co-signed by each of the 
various lead agencies that are involved in new airports or 
airport construction--airport runway construction? Is DOT or is 
FAA considering supporting that or do they have a position or 
are they in opposition to it?
    Ms. Garvey. Well, I think that there is a difference 
between the Uniform Relocation Assistance Act that I think is 
important, and our proposal because we would be dealing with so 
many different statutes. You might have to change many of those 
statutes.
    We've talked with your staff a little bit about this and 
want to pursue this a little bit more. We think that the first 
step is co-location, that is, bringing all the rules together. 
We think the second step, a possible uniform rule, might be 
more challenging, if you will, and one we would like to explore 
a little bit more in detail. There are a lot of environmental 
rules, as you've suggested, and a lot of statutes. Whether it's 
necessary to go through a statutory change, I think is still an 
unanswered question at this point. I think the first point, as 
you've suggested and your staff has suggested, is really co-
location and harmonization; making sure everyone understands 
the steps and perhaps putting some time lines to some of those 
steps is important as well.
    Mr. Ose. I always like to come back to time lines, so I 
appreciate you mentioning that. In terms of the co-location, 
you've got something that's in--that's presently in guidance 
form, if you will. And we're talking about perhaps making it a 
rule or formalizing it through the Administrative Procedures 
Act or otherwise. In terms of the common rule--the common rule 
I'm talking about here that would follow onto that co-location, 
has any work been done in making that final or moving that 
toward the final process?
    Ms. Garvey. It has not, Mr. Chairman. And, as we indicated 
a little bit earlier in both Ms. McLean's testimony and mine, 
we've really been focused on what we can do within the 
administrative authorities that we have. And, also, I think the 
FAA has a real concern about NEPA and a real commitment to not 
wanting to challenge that in any way, because of its 
longstanding history and importance, as the committee has 
suggested.
    Mr. Ose. Do you have the administrative authority to 
finalize a co-location rule as opposed to----
    Ms. Garvey. I'm not sure. I see the staff is nodding yes, 
but I would like to go back and talk to our folks about that. 
And again, what our first threshold question is really to pull 
the rules together and to make sure that part is clear--co-
location as you've said.
    Mr. Ose. Do you have the administrative authority to make a 
common rule here?
    Ms. Garvey. I would suspect that we do. I would like to go 
back and check with our legal staff on that. But I would 
suspect that we would have that authority. Again, we would want 
to work with the Secretary's office on that.
    [The information referred to follows:]

    The FAA does not have the authority to co-locate all 
applicable Federal agency rules governing new airport and 
airport runway construction.

    Mr. Ose. How long do you think we need to--when we send you 
the letter asking you this question, how long do you think we 
need to give you to provide the answer?
    Ms. Garvey. Well, I'm sure, Mr. Chairman, we can get an 
answer back pretty quickly. We'll make sure people start 
looking at that today. We won't wait for the letter.
    Mr. Ose. And, you also talked about the issue of State 
process versus local process versus Federal process, where 
sometimes it's sequential as opposed to concurrent. How do you 
reconcile that? I mean, that's a particular issue in 
California, and perhaps I think it's San Jose right now, which 
has this ongoing struggle between a Federal environmental 
impact statement versus the city's or the State's CEQA 
compliance? How do we basically break this log jam?
    Ms. Garvey. In some cases--for example, San Francisco, 
which is enormously complex, they are conducting environmental 
work for their runway. Their talk about filling in the Bay is 
very, very challenging. We are working very closely with them. 
They are doing simultaneous State and Federal analyses.
    I think the work that we are doing with NASAO that was 
mentioned earlier in testimony is going to be extraordinarily 
helpful. We actually have a contract and memorandum of 
understanding with NASAO--these are the folks that have to deal 
with it all the time--to take a look at the State laws and to 
identify places where we can eliminate duplication, do some 
things simultaneously, use a process that might be more 
preferable to another, and make sure that processes are not 
contradicting each other or are not in conflict.
    By September of this year, we are going to have identified 
some very specific areas that we're going to work on together. 
So I'm looking forward to that. We'd very be happy to get back 
to the committee with the initial findings of this group. We 
signed that contract, I think, in about April of this past 
spring.
    Mr. Ose. Do any of the other witnesses have any input on 
this issue of simultaneous or concurrent processing versus 
sequential processing?
    Mr. Merlis. If I may comment, I think that you have to go 
that way and go to a concurrent review and really, where 
necessary, preempt some of these State and local stumbling 
blocks. Let's face it. We've got a national problem. If we're 
not going to deal with it from a national perspective, we are 
going to have this problem for time immemorial. We've got to 
address the issue from a broad perspective and not a piecemeal 
perspective, for which some of the things we don't have any 
answers, but we think it needs to be addressed boldly and a 
little unorthodox perhaps, ensuring that we comply with the 
environmental imperative, but at the same time, not tie an 
albatross around the economy of the United States of America 
because community A or community B doesn't want to do 
something.
    Mr. Ose. Any others?
    Mr. Ogrodzinski. Mr. Chairman, as the administrator said, 
we are working very closely together beginning to look at 
streamlining and doing these environmental review processes 
simultaneously. We do, at NASAO, believe that's key. We think 
we should do them simultaneously wherever possible.
    Second the word you use, harmonization, I think we need to 
harmonize the requirements of the different review boards and 
committees and so on so that we are talking about the same 
issue and doing those as quickly as possible rather than 
letting them drag on, and then perhaps even if a firm deadline 
is set, looking at judicial review afterwards.
    Mr. Hauptli. Very briefly, Mr. Chairman. I think that's 
very important. Let me give you one concrete example. SEATAC, 
Seattle, in 1997, received from the FAA their final 
environmental impact statement. They are still waiting for 
their Section 401 and 404 permits. That's 4\1/2\ years later. 
So there's a pretty good example of a situation where if we had 
been successful in getting a coordinated review with all of 
these agencies simultaneously providing input and trying to 
work through the difficult issues there, we wouldn't be waiting 
around 4\1/2\ years later after the FAA has issued its final 
environmental impact statement.
    Mr. Ose. The 404 permits you're referring to are the 
incidental take permits that follow from the Army Corps of 
Engineers and Fish and Wildlife?
    Mr. Ogrodzinski. Yes, sir.
    Mr. Ose. I am way over my time. Mr. Tierney for 10 or 12 
minutes, whichever he'd like.
    Mr. Tierney. I don't need as much. I don't want people to 
think it's for a lack of interest. Back in May, we had a 
hearing substantially on the same issues and I had the benefit 
of those transcripts, and as would anybody that wants to go to 
the Web site of the Transportation Committee. If the chairman 
wishes to put any of the material on record here today, you 
certainly have my----
    Mr. Ose. Without objection.
    Mr. Tierney. If you want to put on any----
    Mr. Ose. You're not objecting, are you?
    Mr. Tierney. I'm not objecting. The other unrelated 
question--Ms. Garvey, you're getting quite a workout here 
today, and I apologize to the others, but there's an issue that 
at least I think substantially affects what's good for the 
flying public and that has to do with some unrest about a 
particular labor issue. And I'm not entirely clear, but it 
appears to me that there is at issue whether or not the FAA has 
the authority to implement the contract that some people say 
has been negotiated. Others say that the OMB has either ordered 
you not to implement it or maybe taking the position that you 
shouldn't implement it. And I guess the question would be, can 
you bring us up to date on that issue? What is the FAA's 
authority and how are we going to resolve that and how are we 
going to improve relations so that things can move forward 
there?
    Ms. Garvey. Congressman, just by way of background, I think 
as the committee knows, we are one of the only agencies in 
government that has the ability to negotiate with our unions 
and received that flexibility back in, I believe, 1996. So, we 
have a handful of contracts that we have been able to 
negotiate.
    It's interesting because this really is a flexibility that 
one would associate much more with the private sector, but we 
are obviously still part of Government and still part of an 
executive branch and our budget still goes through the 
Department of Transportation and through OMB, and then 
obviously to Congress.
    So we agreed in the very early days of the first contracts 
we negotiated to, as part of the process, go through the 
Secretary's office and then go through OMB before we finalized 
these contracts. We've done that with each one of our contracts 
during the previous administration, and we are doing it 
currently with this administration.
    OMB has raised some questions and is not moving forward at 
this point. We're still obviously working with OMB on this. The 
labor union in question has raised issues and has filed a 
complaint with the Federal Labor Relations Authority. We are 
waiting for a hearing on that and certainly hope it can be 
resolved quickly. We're not just waiting for the hearing, 
however. We're still very much in discussions with OMB on that 
issue and certainly agree with you and hope it will get 
resolved quickly.
    Mr. Tierney. Now Mr. Merlis, when you were testifying, you 
indicated something about the need to preempt some of the local 
controls or reviews. You did say that, I think?
    Mr. Merlis. Yes, I did. 
    Mr. Tierney. My question for Ms. McLean, is this 
administration advocating a preemption of local control on 
these issues?
    Ms. McLean. That certainly wasn't part of my statement, and 
that's not the position at this time or, you know, we'll get 
back to you as soon as it appears as if we're discussing those 
issues. But at this time, that is not something that we are 
discussing.
    Mr. Tierney. OK. Thank you.
    Mr. Ose. Thank you, Mr. Tierney. There's a comment in one 
of the--and I can't remember whose testimony it is about having 
final completion dates on records of decision and the like. Was 
that----
    Mr. Hauptli. That is mine. I think you're referring to 
mine, Mr. Chairman.
    Mr. Ose. One of the questions that I always have is that 
having been in the real estate development business, sometimes 
these things seem endless in terms of you do the EIR or EIS or 
the EA, and someone questions it and it takes 6 months to do 
the review.
    So you fix the inadequacy and then something else comes up 
and then you take another 6 months. How do we bring closure to 
these things, because frankly, we are spending taxpayer 
resources? I think people would want something material done.
    Mr. Hauptli. That's a very good question, and one we've 
struggled with. We have been working with the FAA and with 
industry to try to come up with some solutions. Frankly, my 
members like Mr. Krietor and others would take some 
predictability in the system, even if it was a longer time 
period than they would like, just to have the predictability. 
You know, any process that you can measure in decades is a 
failed process. And I think we can all agree that the process 
in terms of getting the review and approvals for runway 
construction has been pretty flawed. We have taken too long.
    Mr. Ose. Your statement begs the question, how long should 
runway construction take? From start to finish, from concept to 
completion, how long should it take?
    Mr. Hauptli. That's an easy sounding question with perhaps 
a more complicated answer. But there's a component on the front 
end that involves getting approval locally. And Mr. Krietor and 
others can talk about some of the process you need to go 
through. But, once you have that local approval, the FAA, 
frankly, has not been our enemy in this process. They have been 
helpful. We can get EISs through the FAA in usually 3, 
sometimes 4 years, something in that time period; longer than 
we like, but with the resources that they have, they do a very 
good job trying to move that process quickly.
    Part of what we are trying to deal with is what's on your 
chart that the staff has prepared there, all of these Federal 
laws and all of these other agencies that I think, as you 
termed it, Mr. Chairman, took 40 other bites of the apple, in 
trying to get that coordinated in one sort of package--one 
bucket, if you will, of review. That's a very complicated 
process but one that we support, trying to figure out to 
shave--we believe you can shave 3, 4 and 5 years off of these 
processes or more without being violative of the environmental 
laws.
    Mr. Ose. So how long should it take to build a runway?
    Mr. Hauptli. Well, since it's the third time you've asked 
it----
    Mr. Ose. I'm going to keep asking it.
    Mr. Hauptli. If you could just back up the truck and build 
it, that process takes anywhere from a year to 2 years. You 
have to factor in the review and approval process. This ought 
to be measured in single digits, whether it's 4 years, 5 years, 
6 years, 8 years; something in that time period. Intuitively, 
it shouldn't take 6 or 8 years to pour 2 miles of concrete and 
put some lights in and all the things you need to do. But 
frankly, it is going to take multiple years to do it under the 
best of circumstances.
    Mr. Ose. Mr. Tierney wants me to ask you how many years----
    Mr. Hauptli. It's going to take 4.3 years, Mr. Tierney, on 
every runway.
    Mr. Ose. Yes, Mr. Krietor.
    Mr. Krietor. If I could help Mr. Hauptli out here. We've 
just totally reconstructed our north runway complex at Sky 
Harbor Airport, which was just like building a brand new 
runway. It didn't involve any EIS. It took approximately 9 to 
10 months to complete the actual construction of that project. 
If you put the design element in front of that, you're probably 
1\1/2\ to 2 years.
    Mr. Ose. You took a runway, concrete in the ground, runway 
being used, shut the runway down, jackhammered the runway up, 
put down new rebar, poured the concrete, what have you, took 
you 24, 26 months?
    Mr. Krietor. That's correct, Mr. Chairman. It was actually 
an asphalt runway that we demolished and then totally rebuilt 
as a concrete runway with new taxiways, etc.
    Mr. Ose. Ms. Garvey--and I apologize for going back and 
forth because I'm going to give each of you a chance. The FAA 
is doing some EISs on proposals. I'm trying to find out which 
airports are involved in terms of awaiting FAA action for 
completion of those EISs and the date on which they were 
submitted together with the final date, if you will.
    Ms. Garvey. Mr. Chairman, I'd have to get back to you 
further on the record on that, because if I'm understanding the 
question, we've got a number of environmental efforts underway 
throughout the various regions from EAs to full EISs. And 
perhaps it would help to get back to you, perhaps, broken down 
by the regions, what--how many we have. We can focus primarily 
on the EISs and also add the EAs as well.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 81310.069
    
    [GRAPHIC] [TIFF OMITTED] 81310.070
    
    [GRAPHIC] [TIFF OMITTED] 81310.071
    
    [GRAPHIC] [TIFF OMITTED] 81310.072
    
    [GRAPHIC] [TIFF OMITTED] 81310.073
    
    [GRAPHIC] [TIFF OMITTED] 81310.074
    
    Mr. Ose. I have done actually a little bit of work here on 
this and that is some of these EAs and what have you--for 
instance, Tampa or San Francisco--San Francisco, in particular, 
the EIS was started in July 1999. It's expected to be completed 
in December 2003, which is 3\1/2\ years, 4\1/2\ years. I'm just 
trying to figure out why is it that we can move these things 
expeditiously in some cases and in others----
    Ms. Garvey. That's absolutely a fair question. For example, 
Houston, which took about 18 months, didn't take long at all. 
Most cases have to do with two critical issues. The first 
involves the complexity of the environmental challenges. San 
Francisco, for example, is an airport that ranks as one of the 
most delayed. So we've put together a dedicated team. This team 
is focused solely on San Francisco, both at the national and at 
the regional level. In this case, they are proposing to fill in 
the Bay for the project and that involves a host of agencies.
    The second is an issue that Mr. Hauptli referred to 
earlier, and that is the community opposition. The level of 
community support has an awful lot to do with how successful a 
project is. When the mayor of a community is supportive--when 
the community is involved as was mentioned in the case of 
Minneapolis/St. Paul, then there's sort of a political will at 
the local level to really move mountains, in a sense, to get it 
done.
    So, I think the environmental issues combined with some of 
the community concerns that are often raised at the local 
level, really, in many cases, determine the time lines to some 
degree.
    Having said all of that, I want to say, as I have said 
before other committees of the Congress, we are absolutely 
committed to doing everything we can, whether it's dedicating 
teams, or following up on the co-location idea you mentioned 
earlier. We are absolutely committed to doing whatever we can 
to move the process more expeditiously.
    Mr. Ose. One of the questions--I mean, Mr. Tierney and I 
struggle with all the time is how do we allocate our Federal 
resources. And one of the challenges we have is we can put it 
in A, B, C, D and on and on, ad infinitum.
    If we have an airport where it is difficult to make 
something happen and we have other airports that are waiting in 
the queue, if a locality says, look, we will do something but 
the net result of which, under an analysis, is a reduction in 
net capacity, why would we put a ton of more money in that 
airport, reduce the capacity, compound the problem in the 
system and not help this other airport over here whose 
improvements might very well expedite capacity improvements? 
How do you reconcile that?
    Ms. Garvey. We wrestle with the same question. I do think 
the benchmark report that we put out this year has been already 
extraordinarily helpful in that. It really allows us to take a 
look quite clearly--and some of your charts indicate this as 
well. What are we seeing? When you look at thousands of 
airports in this country it's a handful of airports, the hubs, 
where we see the greatest amount of traffic.
    So by focusing our resources at some of those critical 
hubs, I think we all recognize that we can make a difference.
    Mr. Ose. What's our No. 1 challenge, if you will, in our 
airport infrastructure? I mean, is it San Francisco? Is it 
L.A.? Is it Sky Harbor? Where should Congress collectively say, 
all right, let's go in and fix this and then let's go to that, 
and then let's go to the next one? Do we have a list that 
basically says if we eliminate the log jams here, here, here 
and here, we make 40 percent improvement in the capacity. 
Where's that list?
    Ms. Garvey. That's the list that is included in the 
benchmarks. The list that's included in the benchmarks does a 
very good job of identifying the top 31. Of the top 31, there 
are 8 that we call the pacing airports. You could break it at 
the top 16 or you could break it at the top 8. We focused on 
the top eight. And what we did is propose an action plan for 
each one of those airports that would improve capacity. We said 
is it technology? Is it procedures? Is it runways? In some 
cases, it's all of the above.
    In the case of Atlanta, which is one of the top eight, a 
runway there can increase capacity by about 40 percent. That's 
a pretty good number. We give Atlanta a lot of credit for going 
forward with a runway. If you look at a place like La Guardia, 
it is much tougher. They can't put in a runway, so they have to 
look at other options there.
    Mr. Ose. Mr. Tierney taught me something the other day when 
we were talking about this hearing coming up, and that is, if 
you quantify how much we invest, say, in the airport capital--
how much capital we have in an airport compared to what we are 
spending on rail, there is a significant disconnect, if you 
will, just in the raw numbers.
    And, speaking of La Guardia, the suggestion has been made 
that we ought to be finding a way to move people from La 
Guardia to Kennedy or La Guardia to Newark, or something of 
that nature, rather than trying to force them through La 
Guardia.
    But, other than a list of the 31 airport hubs ranked by 
hours of delay, I'm not familiar with any FAA priority list, so 
to speak, mentioning specific projects, likely payback, if you 
will, and the like.
    Ms. Garvey. Let me refer you to one other document, which 
is on our Web site. We have something that's called the NAS 
Operational Evolution Plan [OEP]. We just completed that 
recently. We've worked very closely with the airlines and with 
airports on it. I think what's significant about the OEP is 
that it addresses exactly what you're talking about. It sets 
forth commitments over 10 years, but not just for the FAA, but 
also for the aviation community. It includes runways.
    So, if you look at the runways that are planned for the 
future, you will see some of the runways that we're talking 
about. I think what's challenging for us as a community, and I 
mean that for the FAA, the airports, and the airlines, is that 
some of our toughest airports that have the worst bottlenecks, 
also are the most complex in terms of solutions. You've talked 
about La Guardia. We've got a lottery in place there. That's 
one solution. I don't think it ought to be the permanent 
solution, but the challenge is determining what it is.
    If you look at a place like San Francisco, again, the 
environmental issue surrounding the challenges of filling in 
the Bay are no small feat. They are taking it on, and I give 
them a lot of credit. The airport director's working very hard 
on it, but it is tough.
    Chicago is another very challenging airport, but I'm very 
happy to see that both the Governor and the mayor are looking 
at that issue with us.
    Mr. Ose. I want to come back to this. Mr. Tierney, for 
however much time that he cares.
    Mr. Tierney. Beating a little bit of a dead horse, but it 
goes back. None of these studies that you are talking about in 
terms of ranking these airlines take into consideration what 
the impact of high-speed rail would be. It barely takes into 
consideration any regionalization of utilizing capacity that 
fully isn't utilized. Certainly doesn't take into effect what 
could be done in a place like San Francisco where 50 percent of 
the traffic is 350 miles or less. If you put in a high-speed 
system that dealt with that kind of traffic, I would imagine it 
would have enormous impact on improvements, environmentally as 
well as traffic-wise in and out.
    The simple fact of the matter is for the last 3 years, 
fiscal 1999 to fiscal 2001, funding for capital expenditures in 
the rail industry, $2 billion; funding for capital expenditures 
in aviation, $13.9 billion, a 7 to 1 ratio. If we look at 
President Bush's budget request and what the House passed for 
fiscal year 2002, funding for capital expenditures in the rail 
industry, $311 million; funding for capital expenditures in 
aviation, $6.2 billion, 20 times more for aviation capital 
expenditures than rail capital expenditures.
    I understand that airports' peoples' jobs are airports. 
That's where they are focused and where they are thinking. But, 
we have to have, particularly with the Department of 
Transportation and the Secretary, some broader thinking on 
this, a national thinking of what we are going to do with our 
infrastructure money that is going to resolve some of these 
issues and make peoples' lives easier, more comfortable, more 
efficient and better use of their time as well.
    I would hope that would include some look at what high-
speed rail could do. Other countries do it. It isn't just all 
geography. That is simply not true. We haven't had the will to 
do this. We have incredible people with interest in airports 
and highways. And, unfortunately, a small but hopefully growing 
group of people with some interest and recognition on high-
speed rail. I would hope that people that are involved in the 
airport industry would start sharing some of that interest as a 
part of the solution of some of their problems, which would 
help get products to market easier as well as people around if 
we absorb our traffic in different ways and work on that.
    I would hope that becomes part of our framework, no matter 
what industry we are and hope you take that message back to the 
Secretary, and through him to the President, and maybe have a 
better idea of how we're spending some of this money. Back to 
you.
    Mr. Ose. Ms. Sandahl, you probably have more experience 
just from the real world perspective. How do we reconcile these 
competing interests, if you will? I mean, Richfield had an 
interest in minimizing the amount of noise from the new runway. 
Northwest runs a huge operation out of Minneapolis/St. Paul. 
The country has an interest in that hub operating efficiently. 
I mean, how do we resolve this stuff? San Francisco--I fly in 
and out of San Francisco regularly. But trust me, they've got a 
problem. Sacramento, on the other hand, which I fly in and out 
of regularly also has excess capacity. I mean, how do we 
resolve this stuff between Federal, State and local interests?
    Ms. Sandahl. Mr. Chairman, one of the things that's being 
proposed, as I understand it, is a suggestion that maybe local 
communities could actually deal with the airport mitigation 
money to allow them to apply it directly as opposed--and apply 
for the funds as opposed to having to go through the airport 
operator. That would allow our local communities to feel more 
in charge of satisfying their residents.
    I think Congressman Oberstar is correct in saying that 
noise is a capacity issue. If you don't have noise complaints, 
you will substantially reduce the times to do your EISs. Beyond 
that, I don't have answers to everything either.
    Mr. Ose. Why not? You're talking about quantifying the 
decibels and the CNELs around the airport and the like, am I 
correct in that, in terms of take-off patterns and the landing 
patterns?
    Ms. Sandahl. Two different issues. One that Richfield is 
currently dealing with is low frequency noise. That is the 
vibration noise caused by the side airport noise and also the 
airport run-up noise. Those are not recognized by FAA, and 
there is no medication money for those problems. That is one 
thing we're looking at and hoping will be addressed.
    The other issue is just the D and L patterns; where do the 
airplanes fly over and where the noise impacts on the ground by 
the people underneath the flight paths? Those clearly are in 
place and are mitigated to the extent that there's funding 
available. One of the problems we have run into at Richfield is 
that we had some of the mitigation funds used to apply for 
the--under the airplane flight path mitigation on our homes and 
then discovered that mitigation will not solve our low 
frequency noise problems. It's a different type of noise, and 
those will not solve those problems. That's why we are looking 
at that issue.
    Mr. Ose. I want to go back for a minute. I want to ask each 
of the four gentlemen in the middle their respective positions 
on the co-location issue and the common rule issue.
    So Mr. Merlis, do you support the co-location concept for 
runway and airport construction?
    Mr. Merlis. Yes. We have to find a way to co-locate that 
decisionmaking process. I would add, though, that I think the 
FAA's primary mission is such that they shouldn't be saddled 
with that responsibility. You get into some difficulties if you 
create some sort of uber agency. But you don't want to have a 
conflicting mission. I think that by establishing a national 
policy, whatever that is, including high-speed rail, if that 
includes high-speed rail and directing the implementation and 
giving that responsibility somewhere, to take all those 
statutes and put it together and get these things done with, I 
think you go a long way toward expediting that piece of the 
regulatory process. You still have the local problem to deal 
with, but at least the regulatory process gets addressed.
    Mr. Ose. Mr. Hauptli.
    Mr. Hauptli. Yes.
    Mr. Ose. Mr. Ogrodzinski.
    Mr. Ogrodzinski. Yes.
    Mr. Ose. Mr. Krietor.
    Mr. Krietor. Yes, Mr. Chairman. But I would also agree with 
Administrator Garvey that many of these issues are--the more 
difficult and complex issues are local issues that do need to 
be addressed at the local level. We need a Federal process that 
helps us move through those local issues in a reasonable 
timeframe.
    Mr. Ose. Let's go to the common rule, then, in terms of 
structuring a common rule governing the Federal bites of the 
apple, to quote a phrase, do you support that concept?
    Mr. Merlis. Yes, sir. And suggest you also preempt some of 
the States that might have a disparate perspective on that.
    Mr. Hauptli. Yes. We agree with that. Again, the FAA's 
primary mission, of course, is safety. The FAA wants to build 
these runways, but other Federal agencies have other missions. 
Building capacity isn't necessarily high on their priority 
list. So getting them involved in the process and making that 
clearly identified is something we would find very useful.
    Mr. Ogrodzinski. Thank you, Mr. Chairman. You used the word 
harmonization. We believe that is part of the co-location that 
is necessary in a single rule. As Mr. Hauptli said, there are 
many different rules governing many different aspects of those 
40 bites of the apple. If we could harmonize those, that would 
be extraordinarily important. And, second, in doing this, I 
want to make sure from the States' point of view that FAA 
maintains its leadership for aviation in the United States. It 
would not be, I think, appropriate for some other organization 
which does not have aviation as its primary objective to 
organize that objective.
    Mr. Ose. Mr. Krietor.
    Mr. Krietor. Yes, Mr. Chairman.
    Mr. Ose. One of you testified that with the addition of 50 
runway miles, we could eliminate, I think, 60 percent of the 
congestion.
    Mr. Hauptli. That would be me again, Mr. Chairman.
    Mr. Ose. Where do we build the 50 miles?
    Mr. Hauptli. The 50 miles of runway is essentially 2 miles 
of runway at the top 25 most delayed airports in the country. 
Our statistics are a little bit different than yours. For the 
year 2000, our statistics show that at the top 20 airports--the 
20 most top delayed airports account for 92 percent of the 
delay in the system. What makes aviation a little bit different 
in ways of streamlining--the highway folks will come in and 
tell you they'd like to streamline their review and approval 
process. And, they're talking about all projects.
    In aviation, we have an identified universe of a couple of 
dozen airports around the country that are critically important 
to making sure we reduce delays. Going back to what 
Administrator Garvey noted in her testimony about one 4-minute 
delay at Chicago can cause hundreds of delays throughout the 
system by the end of the day. If we can focus on a small group 
of delayed airports in the country, we can do things to speed 
up the review and approval process and reduce delays 
dramatically throughout the system.
    Mr. Ose. I just want to make sure that I understand the 
collective opinions here. We need to pursue the safety features 
that come with improved software. Would you agree with that? We 
need to improve the baggage handling and tracking systems as a 
means of reducing consumer complaints. Is there any way to 
address our obvious challenge of moving a billion people a year 
without building new runways? Anybody have any--Mr. Merlis says 
no. I mean if you're silent on this issue----
    Mr. Hauptli. The airport guy says no. Sorry, Mr. Tierney. 
You need to build more runways.
    Ms. Garvey. At key airports, that's true. You need to build 
more runways.
    Ms. McLean. I would agree with Ms. Garvey, yes.
    Mr. Ose. Mr. Ogrodzinski.
    Mr. Ogrodzinski. Mr. Chairman, we at NASAO certainly have 
been promoting the development of new airports and new runways 
for 7 years, but Mr. Tierney said something very interesting 
and important about the regionalism. You know, there are many 
airports in and around New York. We don't have to all fly into 
La Guardia. I think that sort of regionalism has a role to play 
in reducing delays and cancellations.
    Mr. Krietor. If I could use one brief example. With our 
weather and wind conditions in Phoenix, a runway basically 
handles 20 million passengers. So, when we added the new runway 
there, we increased our capacity to handle from, say, 
approximately 40 million up to 60 million passengers. So the 
runway there essentially gave us the capacity to meet what we 
know is going to be the region's growth over the next 15 to 20 
years. It is a dramatic increase in capacity. And I don't see 
any other way in our environment that we could have achieved 
that objective without the runway.
    Mr. Ose. Ms. Sandahl, in your Richfield, Minneapolis area, 
I know that area is growing, maybe not as quickly as Los 
Angeles or others, but what breadth of discussion occurred in 
terms of meeting the needs for moving people in and out in the 
context of your involvement?
    Ms. Sandahl. Mr. Chairman, we did talk and there was public 
discussion about a fast train between Minneapolis and Chicago. 
Many of our flights are wing tip to wing tip between 
Minneapolis and Chicago. So that was one of the things that was 
talked about. Obviously, there were no dollars and it wasn't 
done, but that was discussed.
    Mr. Ose. I've ridden the train from Minneapolis to Chicago. 
You're talking about high-speed.
    Ms. Sandahl. They were looking at high-speed. I had an all 
night train ride and we stopped at every milk run.
    Mr. Ose. All right. I'm not sure that I have any other 
verbal questions, Mr. Tierney. If you care to offer any you 
might have.
    Mr. Tierney. None. Let's wrap.
    Mr. Ose. I want to thank the witnesses for appearing today. 
We have a number of questions we're going to follow-up with you 
individually. We're going to leave the record open for 10 days 
for Members, questions and the like. You have a statement you 
want to enter into the record?
    Mr. Tierney. No, I don't.
    Mr. Ose. Other Members who may have a statement, we will 
allow that in written form.
    I want to thank our witnesses again. Today we learned there 
is much that can be done to try and address our customer 
problems as they relate to delays. All parties, including the 
Federal Government, airlines, airports, State officials, local 
officials are part and parcel of this. And we are working 
together to a certain degree to help address this capacity 
problem among others.
    Clearly, the testimony was that the co-location or the 
common rule concept has validity and that some measure of 
promise is held with the streamlining in some of these 
environmental regulations. I do stand ready to assist in this 
effort. I know Mr. Tierney does also. In fact, he's been 
educating me about northeastern transportation problems. So I 
look forward to making this happen, and I thank everybody for 
appearing today.
    Mr. Tierney. Mr. Chairman, I hope that I remembered to ask 
that miscellaneous matters be put in the record, particularly 
that article I referenced.
    Mr. Ose. Without objection. Thank you all for coming.
    [Whereupon, at 4:15 p.m., the subcommittee was adjourned.]
    [The prepared statements of Hon. Dennis J. Kucinich, Hon. 
C.L. ``Butch'' Otter, and additional information submitted for 
the hearing record follow:]
[GRAPHIC] [TIFF OMITTED] 81310.075

[GRAPHIC] [TIFF OMITTED] 81310.087

[GRAPHIC] [TIFF OMITTED] 81310.076

[GRAPHIC] [TIFF OMITTED] 81310.077

[GRAPHIC] [TIFF OMITTED] 81310.078

[GRAPHIC] [TIFF OMITTED] 81310.079

[GRAPHIC] [TIFF OMITTED] 81310.080

[GRAPHIC] [TIFF OMITTED] 81310.081

[GRAPHIC] [TIFF OMITTED] 81310.082

                                   - 

</pre></body></html>
